NO.
IN THE
SUPREME COURT OF THE UNITED STATES

STANLEY PRICE,
Petitioners,
v.
JUDGE PAULETTE RILE IRONS, Officially and Individually; Pro Tempore DONALD T.
JOHNSON; QUIANA M. HUNT, HUNT-CLARK LAW FIRM, L.L.C.; Officially; SHARON
K. HUNTER; ROBIN M. GIARRUSSO; Officially and Individually; CHRISTOPHER J.
BRUNO, Officially and Individually; OFFICE OF DISCIPLINARY COUNSEL; SUSAN C.
KALMBACH, JUDICIARY COMMISSION OF LOUISIANA, Officially and Individually;
MICHELLE A. BEATY,
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
Case No. 20-30412

CERTIFICATE OF SERVICE
I CERTIFY that on this 17th day of May, 2021, a copy of the foregoing writ of certiorari
has been served on opposing counsel of record by depositing same in the U.S. mail, first class with
sufficient prepaid postage and properly addressed as follows:
Sharon Kaye Hunter #7087
2629 Dante Street
New Orleans, LA. 70118
Assistant Attorney General
James G. Evans
State of Louisiana
Department of Justice
Litigation Division
P.O. Box 94005
Baton Rouge, LA. 70804-9005

